             September 11, 2002

             MEMORANDUM

             FOR:             M/AS, Roberto J. Miranda

             FROM:            IG/A/ITSA, Melinda G. Dempsey /s/

             SUBJECT:         Risk Assessment of Major Functions Within the Information
                              and Records Division of the Office of Administrative
                              Services, Bureau for Management
                              (Report No. A-000-02-003-S)

             This memorandum is our report on the subject risk assessment. Although
             this is not an audit report, this report contains suggestions for your
             consideration. We have reviewed your comments, and they are included as
             Appendix II. I appreciate the cooperation and courtesy extended to my staff
             during the risk assessment.


Background   The Office of Administrative Services, Bureau for Management, (M/AS)
             provides logistical support services and administrative services worldwide
             and is responsible for functions costing approximately $40 million annually.
             It is comprised of the Office of the Director1 and four divisions:

             •   Consolidation, Property and Services Division,2
             •   Information and Records Division,
             •   Overseas Management Support Division,3 and
             •   Travel and Transportation Division.4

             During the past decade, the Office of Inspector General has performed few
             audits of the Office of Administrative Services’ functions. In addition, the
             Office of Administrative Services has received limited external reviews and
             evaluations from other sources. Given the lack of external independent

             1
               See risk assessment Report No. A-000-02-001-S.
             2
               See risk assessment Report No. A-000-02-002-S.
             3
               See risk assessment Report No. A-000-02-004-S.
             4
               See risk assessment Report No. A-000-02-005-S.
                                                                                   Page 1 of 11
reviews, including audits, we performed risk assessments of the major
functions of the Information and Records Division of the Office of
Administrative Services.

The General Accounting Office’s “Standards for Internal Control in the
Federal Government” (November 1999) note that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, assets are safeguarded against loss, and
that transactions are properly recorded. Internal controls consist of the
following five interrelated components. These components are the minimum
level for internal control and provide the basis against which internal control
is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive
   attitude toward internal control and conscientious management.
2. Internal control should provide for a risk assessment of the risks the
   agency faces from both external and internal sources.
3. Internal control activities should be effective and efficient in
   accomplishing the agency’s control objectives and help ensure that
   management’s directives are carried out.
4. Information should be recorded and communicated to management and
   others within the agency who need it and in a form and within a time
   frame that enables them to carry out their internal control and other
   responsibilities.
5. Internal control monitoring should assess the quality of performance over
   time and ensure that the findings of audits and other reviews are
   promptly resolved.

This review focused on the second component—risk assessment. The GAO
Standards note that the specific risk analysis methodology used can vary
because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning risk levels. This review assigned a
risk exposure of high, moderate, or low for each major function. A higher
risk exposure simply indicates that the particular function is more vulnerable
to its program objectives not being achieved or irregularities occurring.
Appendix I describes in detail our risk assessment scope and methodology.




                                                                        Page 2 of 11
Discussion   The Information and Records Division of the Office of Administrative
             Services, Bureau for Management, (M/AS) is responsible for the
             following four major functions.5 Our assessments of the risk exposure for
             each of these major functions are described below.

                             Function Description                                Risk Exposure
                 Agency directives—Format, distribution, and
                 clearance of Automated Directives System
                 (ADS)                                                      Moderate
                                         Risk Assessment Factors
                 • During fiscal year 2001, two contracts to perform this activity
                     incurred obligations of $514,000 and $413,000. Only $65,000 of the
                     $514,000 is for production of ADS CD ROMs with the rest going to
                     other records management activities. The second is for document
                     preparation, web page development and maintenance, and
                     administrative support.
                 • No independent review of the ADS function has been conducted
                     since at least October 1996.
                 • The cognizant technical officer for the $514,000 contract (CD
                     ROMs) is from another bureau.
                 • Some ADS are out-of-date in content and/or format. Causes include
                     USAID bureaus’ lack of support and low priority. Bureaus are
                     requested to annually certify if their ADS policies and procedures
                     are current. However, the response certifications are not tabulated
                     and limited followed-up is conducted.




             5
               Our risk assessments only covered major functions. In addition to the major functions
             described in this report, the Information and Records Division also is responsible for
             archiving of records, correspondence management, forms and report management program,
             review and submittal of Federal Register Notices.
                                                                                                Page 3 of 11
           Function Description                         Risk Exposure
Declassification of records                                Moderate
                        Risk Assessment Factors
• Function has limited dollar vulnerability.
• Declassification team consists of five staff of retired annuitants.
• Declassification can be highly sensitive.
• No internal quality control review process is in place.
• Initial review of high priority documents has been completed, now
   reviewing remaining documents in sequential order.
• Executive order 13142 requires declassification of all records prior
   to 1978 (25 years old) by 2003. The status of USAID’s
   declassification is early-1970s documents. Despite expectations of
   meeting deadline requirements, effective measurement of progress is
   limited because universe of documents yet to be declassified is
   unknown.
• USAID has agreements with other federal agencies to review and
   declassify documents pertaining to USAID. Certain categories of
   these documents are referred to the USAID declassification team.
• Database for tracking document declassification was instituted in
   May 2001 but will require a substantial amount of time to
   “catch-up”.
• Space in the declassification area is cramped.


            Function Description                       Risk Exposure
FOIA and PA—Processing of Freedom of
Information Act (FOIA) and Privacy Act
(PA) requests for information                             Moderate
                        Risk Assessment Factors
• Function has limited dollar vulnerability.
• The greater risk is associated with releasing too much information.
• No internal reviews have been conducted since at least 1992.
• FOIA attorney position has recently been filled by a retired annuitant
    after being vacant for over one year.
• Despite several attempts, FOIA analyst position has been vacant for
    approximately one year.
• Current (Microsoft Access) database used to track FOIA requests is
    of limited usefulness. Software designed specifically for FOIA
    activity has recently been purchased and is being implemented.
• Despite several attempted updates, the inventory of the Agency’s
    “System of Records” has not been updated since 1975.




                                                                 Page 4 of 11
            Function Description                        Risk Exposure
Vital records management                                     High
                        Risk Assessment Factors
• Vital records management is receiving increased attention since the
   recent attacks on government installations.
• The management of the vital records function is carried out by one
   staff person who has been in that role since 1997 and is expected to
   spend 50 percent of her time on vital records.
• The U.S. storage of vital records is carried out by one contractor.
   USAID missions arrange for their own storage.
• The identification part of the function is carried out by bureaus and
   missions using guidance from the Information and Records Division
   vital records officer. This same vital records officer provides
   training and assistance to bureaus and missions.
• In response to a general notice, several bureaus (4 of 12) and most
   missions (61 of 69) have not reported their most recent status to the
   Information and Records Division in identifying their vital records
   and/or file plans.
• No oversight mechanism exists for reporting the bureaus and
   missions’ status in (not) meeting vital records requirements.
• No recent internal reviews of the vital records function.
• Unnecessary effort could be avoided if a single database were used
   for incorporating vital records within the file plans.




                                                                  Page 5 of 11
Conclusion   Our risk assessments of the Information and Records Division of the Office of
             Administrative Services, Bureau for Management, (M/AS) covered four
             functions and reached the following conclusions.

                                                                  Risk Exposure
                       Function Description                   High    Moderate         Low
               Agency directives—Format, distribution,
               and clearance of Automated Directives                       !
               System (ADS)
               Declassification of records
                                                                           !
               FOIA and PA—Processing of Freedom of
               Information Act (FOIA) and Privacy Act                      !
               (PA) requests for information
               Vital records management
                                                               !
             Based on these assessments, we suggest that the Office of Administrative
             Services focus its efforts to mitigate the higher risk associated with the
             function of vital records management. Specifically for the vital records
             management function, we suggest that the Office:

                •   identify and report to USAID management those missions and bureaus
                    that have not provided their vital records plans and upgrade the general
                    notice to the Administrator level.

             Beyond this high-risk function, we suggest that the Office of
             Administrative Services institute the following improvements:

                •   in regard to the agency directives function, track, follow-up, and
                    report to management the status of ADS response certifications
                    from bureaus,
                •   in regard to declassification of records, intensify efforts to ensure
                    that the database to measure declassification status is current, and
                •   in regard to the FOIA and PA function, (1) update the inventory of
                    the Agency’s “System of Records” and (2) complete the
                    implementation of a new database for tracking FOIA and PA
                    requests.

             Both Information and Records Division and Office of Administrative
             Services management agreed with our risk assessments and our suggested
             courses of action. The Office of Administrative Services noted in their
             comments on the draft report (see Appendix II) several specific actions
             that that they have pursued to respond to our suggested courses of action.

                                                                                  Page 6 of 11
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General, Information Technology and Special
              Audits Division, conducted a risk assessment of major functions within the
              Information and Records Division of the Office of Administrative Services,
              Bureau for Management (M/AS). This risk assessment was not an audit.
              The risk assessment covered operations principally for fiscal year 2001. The
              risk assessment was conducted at USAID headquarters in Washington, D.C.
              from October 12, 2001 to February 14, 2002.

              Our risk assessments of the Information and Records Division’s major
              functions have the following limitations in their application.

              •   First, we assessed risk at the major function level only, not at the
                  Division or Office level.
              •   Second, we assessed risk only. Our risk assessments were not sufficient
                  to make definitive determinations of the effectiveness of internal controls
                  for major functions. Consequently, we did not generally (a) assess the
                  adequacy of internal control design, (b) determine if controls were
                  properly implemented, and (c) determine if transactions were properly
                  documented. If we were able to make these types of determinations
                  within the scope of our work, we reported on them accordingly as part of
                  our risk exposure assessments.
              •   Third, higher risk exposure assessments are not definitive indicators that
                  program objectives were not being achieved or that irregularities were
                  occurring. A higher risk exposure simply indicates that the particular
                  function is more vulnerable to such events.
              •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider
                  both internal and external factors, some being outside the span of control
                  of management.
              •   Fifth, comparison of risk exposure assessments between organizational
                  units is of limited usefulness due to the fact that risk assessments
                  consider both internal and external factors, some being outside the span
                  of control of management.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by the Information and Records Division. These
              documents covered background, organization, management, budget,
              relevant laws and regulations, staffing responsibilities, prior reviews,
              internal controls, and risks (i.e., vulnerabilities). Our tests of
              documentation were limited and judgmental in nature and conducted
              principally to confirm oral attestations of management.


                                                                                      Page 7 of 11
We identified the Division’s major functions using the input of the Division
Director and based on the significance and sensitivity of each major function.
We determined risk exposure for all major functions in each division, e.g., the
likelihood of significant abuse, illegal acts, and/or misuse of resources, failure
to achieve program objectives, and noncompliance with laws, regulations and
management policies. We assessed overall risk as high, moderate, or low. A
higher risk exposure simply indicates that the particular function is more
vulnerable to its program objectives not being achieved or that irregularities
were occurring. We considered the following key steps in assessing risk:

(a)    determined significance and sensitivity;
(b)    evaluated susceptibility of failure to attain program goals,
       noncompliance with laws and regulations, inaccurate reporting, or
       illegal or inappropriate use of assets or resources;
(c)    were alert to "red" flags such as a history of improper administration
       or material weaknesses identified in prior audits/internal control
       assessments, poorly defined and documented internal control
       procedures, or high rate of personnel turnover;
(d)    considered management support and the control environment;
(e)    considered competence and adequacy of number of personnel;
(f)    identified and understand relevant internal controls, and
(g)    determined what is already known about internal control effectiveness.

These risk assessments were not sufficient to make definitive determinations
of the effectiveness of internal controls for major functions. As part of the
review methodology, we did (a) identify, understand, and document (only as
necessary) relevant internal controls and (b) determine what was already
known about the effectiveness of internal controls. However, we did not
generally (a) assess the adequacy of internal control design, (b) determine if
controls were properly implemented, nor (c) determine if transactions were
properly documented. In some cases, we were able to make these assessments
and reported on them accordingly as part our risk exposure assessments.




                                                                       Page 8 of 11
                                                                    Appendix II


Management
Comments




                                                   April 15, 2002




             MEMORANDUM

             TO:          Melinda Dempsey, IG/A/ITSA

             FROM:        Roberto J. Miranda, M/AS/OD

             SUBJECT:   Risk Assessment of Major Functions Within the
                        Information and Records Division of the Office
                        of Administrative Services
                        (Report No. A-000-02-xxx-S)


                  The Information and Records Division (IRD) has no
             objections to the designated Risk Exposure ratings and
             recommended improvements of the four IRD programs (ADS,
             Systematic Declassification, FOIA/PA, and Vital Records)
             reviewed by OIG.

                  Identify and report to USAID management those
             missions and bureaus that have not provided their vital
             records plans and upgrade the general notice to the
             Administrator level.

                  IRD's premise is that while many USAID organizations
             are sensitized to a need to capture Vital Records, they
             may not adequately understand the program and their roles
             in the program. To rectify this problem, IRD held 6
             Vital Records Workshops in 2001 and provided many
             individual briefings to USAID/W offices. A briefing on
             the Vital Records Program will be given at the upcoming
             2002 EXO Conference. M/AS Overseas Management Support
             Division has been holding focus group meetings with many
             USAID/W offices. One of the major goals of the focus
             meetings is to help the participants define their vital
             functions - the first major step in developing a Vital
             Records package.

                                                                    Page 9 of 11
     IRD is taking actions on other fronts that will
impact the development of Vital Records packages in
Washington.

     Based on increased awareness by the missions and
bureaus, IRD expects the 2002 reporting compliance rate
to be higher than previous years.

     In regard to the Agency directives function, track
and follow-up the status of ADS response certifications
from bureaus.

     The Automated Directives System (ADS) includes ADS
policy and procedural chapters, active portions of the
old USAID Handbooks, Agency Policy Notices, and
applicable internal and external references.

     The IRD contractor provides a monthly report on the
status of the ADS chapters. Every year, as required by
ADS 501.3.7 (Automated Directives System [ADS] - Annual
ADS Certification), IRD and its contractor conduct a
certification review of the ADS chapters. Cognizant
Directors responsible for ADS materials are required to
certify that the contents of their chapters are current.
If the chapters are not current, they are asked to
provide a timeline outlining the planned revisions. If
the Directors/Division Chiefs do not respond to the
certification requests, IRD makes two one-on-one follow-
ups: one with the Directors/Division Chief and one with
the official above the Director/Division Chief. During
the upcoming certification process, IRD intends to
continue this established protocol. However, in line
with OIG's recommendation, IRD will report the non-
responding offices to upper management within the Bureau
for Management.

     In regard to declassification of records, intensify
efforts to ensure that the database to measure
declassification status is current.

     The development of our Declassification Program
database capabilities is well underway and there is no
backlog of data to be entered into the system.

     In regard to the Privacy Act function, update the
inventory of the Agency's "Systems of Records"


                                                 Page 10 of 11
     The Agency's inventory of its Privacy Act (PA)
Systems of Records is outdated. IRD has not had the
necessary manpower resources to correct this inadequacy.

     While IRD does intend to update this inventory, it
must be noted that that process may take 18 to 24 months
to complete. IRD's limited direct-hire resources will
restrict our efforts. The speed in which this task can
be accomplished will be dependent upon the cooperation of
the systems' owners. Depending upon the changes that
must be made to a system's descriptions, 30- to 60-day
notifications must be sent to the Federal Register and
sometimes to OMB.

     In regard to the Freedom of Information Act (FOIA)
and Privacy Act (PA) functions, complete the
implementation of a new database for tracking requests.

     IRD currently has a simple ACCESS-based tracking
database for its FOIA and PA requests. The compilation
of that data for this very complex report is cumbersome
and time-consuming.

               IRD has purchased a FOIA tracking, on-line
               redaction, and reporting COS software
               program. This program is being tailored
               to reflect our unique organizational
               makeup and processing methods. Training
               will be provided to the USAID Systems
               Administrator and the FOIA Specialists.
               These tasks are scheduled to be completed
               by June 31, 2002.

     In closing, M/AS/OD appreciates the professional
assistance, courtesy and help of the IG staff,
particularly as we work to implement your
recommendations.




                                                 Page 11 of 11
